<html>
<title> - OVERSIGHT OF THE ECONOMIC DEVELOPMENT ADMINISTRATION</title>
<body><pre>[Senate Hearing 116-239]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-239

                       OVERSIGHT OF THE ECONOMIC
                       DEVELOPMENT ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE
                               
                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 22, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-975 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 22, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Inhofe, Hon. Thomas M., U.S. Senator from the State of Oklahoma..     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Fleming, Hon. John, M.D., Assistant Secretary of Commerce for 
  Economic Development, U.S. Department of Commerce..............     6
    Prepared statement...........................................     8
    Response to an additional question from Senator Barrasso.....    18
    Responses to additional questions from:
        Senator Carper...........................................    18
        Senator Booker...........................................    21
        Senator Ernst............................................    24

 
          OVERSIGHT OF THE ECONOMIC DEVELOPMENT ADMINISTRATION

                              ----------                              


                      WEDNESDAY, JANUARY 22, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    U.S. Senate Committee on Environment and Public Works 
Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(chairman of the committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Ernst, Cardin, Whitehouse, Gillibrand.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will conduct oversight of the Economic Development 
Administration. I would like to welcome our witness, Dr. John 
Fleming. We have worked together over the years. He is the 
Assistant Secretary of Commerce for Economic Development. In 
March of last year, the Senate confirmed Dr. Fleming. I look 
forward to hearing about the agency's priorities under your 
leadership.
    The Economic Development Administration's mission is to 
foster regional economic development efforts in communities 
across the Nation. That mission is guided by the principle that 
sustainable, economic development should be locally driven. 
Instead of the Washington knows best approach, the Economic 
Development Administration works hand in hand with local 
partners. The Agency provides limited funding and technical 
assistance to advance projects that already have local buy-in 
and are best positioned to succeed. These projects are linked 
to a region's long-term, sustainable economic development 
strategy.
    Many communities were hard hit during the Great Recession. 
The economic impacts to coal communities under the Obama 
administration were devastating. Economic conditions combined 
with the war on coal put the industry's best-paying jobs in the 
crosshairs. No State felt this more than Wyoming, the leading 
coal-producing State in America.
    President Trump has worked to reverse this trend. Under his 
leadership, the Economic Development Administration established 
the Assistance to Coal Communities Initiative. Coal is a 
valuable resource. It powers our homes; it fuels our factories.
    What many outside coal country might not realize is that 
there are new uses for coal, and those are emerging. Just last 
year, EDA provided $1.4 million in funding to the Campbell 
County Economic Development Corporation for its Advanced Carbon 
Products Innovation Center. This center is working to bring new 
uses for coal from the lab to the marketplace. These uses might 
include carbon fiber or paving material. The center is expected 
to create jobs and attract about $15 million in private 
investment.
    In addition to attracting private sector investment, I 
commend the Administration's partnership with our State 
educational institutions to promote work force development. A 
great example is in the Northern Wyoming Community College 
District. Last year, the college district received an EDA grant 
to support work force training at Gillette College. The grant 
is funding the purchase of science, technology, engineering, 
and management equipment. The Economic Development 
Administration's support for Wyoming workers extends beyond the 
energy industry.
    In 2019, the agency provided $3 million in funding to 
Central Wyoming College to build a new agriculture training 
facility. The new 85,000 square foot facility is going to 
provide hands-on training to Wyoming students. The college is 
building the training facility in an area identified as an 
opportunity zone under the new tax reform law. These 
opportunity zones are areas across the Country where new 
investment can spur economic development. As Dr. Fleming I am 
sure will discuss, the Economic Development Administration is 
focusing its work in these areas. This is another example of 
how the Trump Administration is implementing the tax reform law 
to grow our economy and help communities by providing 
additional opportunities.
    I look forward to hearing more about these initiatives and 
the good work that is being done by the Economic Development 
Administration.
    I would now like to turn to Ranking Member Carper.
    Senator Inhofe, in light of your commitment as Chairman of 
the Armed Services Committee and this issue with scheduling, 
please proceed.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you. I thank both of you for giving 
me this opportunity.
    We have a reason that we can't be here. I don't need your 
opening statement; I know exactly what you are doing. I know 
the successes we have had. I know that the EDA has really 
performed well and follows the lines that as the Chairman just 
said, that we have the opportunity to use matching funds to 
show the support at home is really being grown.
    In my State of Oklahoma, as you well know, and some of the 
others know here, I am sure, we had a devastating flood this 
past year. It was one of these 100-year things that happens 
every year that you always hear about, but this was really bad. 
Our levee in Tulsa, we call it the West Tulsa Levee, was built 
in the middle-1940's. It is well past its lifetime.
    When this flood came in, we were actually, we had people 
with fingers in the dike down there, literally, getting around. 
We were very fortunate that we didn't have a major disaster.
    In addition to that, we had problems--a lot of people don't 
know that we are Oklahoma are navigable. We have a navigation 
way that comes all the way up to Tulsa. But going through the 
Port of Muskogee, we had extensive damage done down there, and 
that falls into the category of your disaster recovery Grant.
    Those two programs primarily, let me first of all thank you 
and the Corps of Engineers for moving up the studies that are 
going to be necessary before we actually start fixing that 
dike. It is been initially thought it was going to be 3 years, 
and it has turned out to be about a year and a half, so we are 
making great headway.
    But what I would like to do is just to be sure, as we found 
out when we had the committee hearing with the Corps of 
Engineers, they said there is not a higher priority in the 
Country than this to get it done, because it would mean lives 
if something else happened. I would kind of like to make sure 
the use I still feel the same way about your participation in 
helping us to fix that levee.
    [The prepared statement of Senator Inhofe follows:]
    Dr. Fleming. Well, thank you, Senator Inhofe. Let me say 
first of all, that since 2015, EDA's priority when it comes to 
disaster relief has been to focus on resiliency. I think this 
project really points that out.
    We are looking at the Tulsa County Drainage District 12 
levee pump stations. Application has been made, and 
coincidentally, Senator, the decision is being made by the 
committee that makes this decision today. Perhaps, by the end 
of the day----
    Senator Inhofe. Where is that taking place?
    Dr. Fleming. In Austin. We are broken up into six regions, 
and each application goes to whichever region, of course, has 
authority. In this case, it is Austin. It would never make it 
that far if it wasn't a really good application.
    I can't get ahead of the decision of course, and in fact, 
the decision is not mine, it does lie at the regional level. So 
I hope to have good news for you by the end of the day.
    Senator Inhofe. I appreciate that very much. I was not 
aware that that was taking place. We will have to take note of 
that because it is something that I hear about on a daily basis 
back there.
    This is kind of the No. 1 concern and problem that we have 
had there, so let me first of all thank the Chairman and 
Senator Carper for letting me forge ahead on this, and let me 
thank you for the priority that you have already demonstrated 
that you are giving, and we will look for wonderful things to 
happen. Thank you very much. Thank you.
    Dr. Fleming. Right, great. Thank you, Senator Inhofe.
    Senator Barrasso. Thank you, Senator. Now, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. You can never have too many doctors at a 
hearing, Dr. Fleming, Dr. Barrasso. Happy to welcome back and 
nice to see you. Thank you for your service in a lot of 
different ways for our Country.
    This is a great opportunity for us to hear a little about 
some of the programs at EDA, some of which we are intimately 
familiar with, others not, but to hear how you are doing and to 
see how, as you approach the end of the first year of this 
leadership role, how EDA is doing.
    Senator Rounds and I are both recovering Governors, and we 
approach a lot of issues here with our recovering-Governor hat 
on. I was privileged to be Governor for 8 years, the same 8 
years that Bill Clinton was president. During those 8 years, we 
had 8 years of balanced budget, seven out of 8 years we reduced 
taxes. We earned triple A credit ratings. More jobs were 
created in those 8 years than in any 8-year period in the 
history of the State of Delaware before or since.
    I did not create one of them. I did not create one of them. 
You hear a lot from Governors, presidents, mayors, Senators 
about the jobs that they create. We don't create jobs. What we 
do is help create a nurturing environment for job creation. 
There is a significant role for the Federal Government to play 
in that we deal a lot here with transportation policy, that is 
important. We are trying to figure out how to reach to the next 
generation in nuclear energy and do so in a safe way.
    We do work a lot here on water projects and trying to make 
sure not just that we have clean water to drink, and that is 
important, but also that we have beaches that have been 
replenished and channels that have been dredged and all that 
stuff. It all works together.
    As everybody in the room probably knows, EDA supports 
economic development by providing Federal funds to local-driven 
projects. Jim Inhofe just talked about one. I could talk about 
a number of them, and will, here in a moment, but projects that 
are for economic creation, job creation.
    These investments can serve as a lifeline, especially in 
economically distressed or moribund communities like my native 
West Virginia. Senator Capito knows full well what I am talking 
about. She lives and sees this every day.
    Over the years, I have had the opportunity to see first-
hand how these investments, including those by EDA, support 
projects, and create jobs in all of our home States, including 
my home State now of Delaware. This past September, a couple 
months ago, Dr. Fleming, you were good enough to come to open 
what we call the Delaware Innovation Space in Wilmington. 
DuPont forever, forever, ever for hundreds of years was like 
the economic lynchpin in Delaware. Tens of thousands of jobs.
    When I was sworn in as Governor of Delaware in January 
1993, 27,000 people went to work that day in Delaware for 
DuPont, 27,000. Today, 4,000. The question is, what do you do 
about that? How do we deal with that?
    We had a lot of DuPont employees who were let go. A lot of 
them had PhDs at the end of their name, and they had created 
some amazing things that DuPont is famous for. All of a sudden, 
they were without a job.
    We have created this Innovation Space on the campus of the 
experimental station of DuPont. It is a whole new creation, a 
boomload of jobs. We are excited about the. EDA has played a 
very significant role in helping us to make sure that the 
innovation space is open for business, helping local 
entrepreneurs, including some former DuPonters, launch their 
startups or get their small businesses off the ground.
    Down at the other end of our State, all the way at the 
southern end of our little State is a place called Georgetown. 
It is the county seat of Sussex County, Delaware. Sussex County 
is one of the largest counties in America. They raise more 
chickens than any county in America. I think they may raise 
more soybean than any county in America.
    They are going to be the home of the Delaware Technical 
Community College's Owens Campus. They were fortunate to 
receive about $2 million from EDA in a grant last year. This 
grant supplemented about, as I said in my remarks here, this 
grant supplemented almost $3.5 million in local investment. 
What it did is it leveraged. The money from EDA helped us 
leverage from auto dealers, from folks like Purdue poultry, and 
all these other companies, big trucks. But we leveraged and put 
together close to $5.5 million to build what we call the 
Automotive Center of Excellence.
    Now, Georgetown will soon be home to the first auto 
technician and diesel mechanic training program, not just in 
Sussex County, not just in Delaware, but in the whole Delmarva 
Peninsula. It is a win not just for Sussex County; it is a win 
for every employer who needs folks like this. You and I, we 
could drive, in our home States of Wyoming, West Virginia, 
Iowa, Delaware, we could drive and visit their auto dealers 
today, and they will almost all tell you, we need people who 
can do this work at our shops, who have the skills and are 
willing to do this work, and there is just a real shortage of 
them.
    But the center that I have just described will offer local 
students a trade to learn and the opportunity to stay and raise 
a family in their home area instead of moving away to try to 
find good paying jobs elsewhere. It will also give our area 
dealerships and diesel operators a work force they desperately 
need to succeed.
    To say the least, I am very pleased that we received this 
assistance from EDA for these projects and are grateful for the 
vote of confidence. We can see the real-world impacts of EDA's 
investments in our communities.
    However, as we near the release of the President's budget 
proposal for Fiscal Year 2021 coming up in a couple of weeks. 
It is worth noting that in the previous three budget proposals, 
the Trump Administration proposed to eliminate EDA funding. I 
fear that EDA will suffer a similar fate in the upcoming budget 
proposal, and I think it is just the opposite of what we should 
be proposing for EDA. I am sure you agree.
    The EDA has not been reauthorized since 2008. As we review 
the programs at EDA, I believe we must examine how these 
programs can be improved and expanded to better assist 
disadvantaged communities, communities of color, indigenous 
communities as well. We also need to examine how EDA can assist 
those communities that are most vulnerable to the effects of 
global climate crisis.
    Senator Inhofe talked about 100-year floods in Oklahoma 
that now occur every year. We have at Ellicott City, not far 
from here, Ellicott City, Maryland, where they got two 1,000-
year floods withing a year and a half of each other. Down in 
Houston, they got two 1,000-year floods withing 18 months of 
each other. Something is happening here, and we have to be able 
to see that EDA is one of the tools in our toolbox to ensure 
that we are planning and building more climate-resilient 
communities.
    Finally, our Country's economy is undergoing historic 
changes. Regardless of its changes in technology and automation 
to address climate change, we have to make certain that we 
support communities and workers in that transition. Let me just 
say that again. Our Country's economy is undergoing historic 
changes. Regardless of changes in technology and automation in 
order to address climate changes, we have to make sure that we 
support communities and workers in that transition.
    The golden rule says to treat other people the way we want 
to be treated. Who is my neighbor? Well, the coal miners in 
West Virginia who are losing work and other places around the 
Country where their jobs that provided a living for people 
forever are slowly going away. We need to treat those people as 
though they were our neighbors.
    As we make changes in national energy policy and industrial 
practices, we need to both minimize impacts and provide 
assistance to communities and workers that are affected by 
these changes. I believe EDA will be a key point of that 
effort, too.
    Mr. Chairman, thanks again for pulling this together. Dr. 
Fleming, just great to see you. Thank you for coming to 
Delaware, and thank you for your leadership at EDA. All the 
best.
    Senator Barrasso. Thank you very much, Senator Carper.
    Dr. Fleming, welcome back to the committee. I want to 
remind you the entire, full written testimony will be made part 
of the record, so I ask you to please keep your statement to 
about 5 minutes, and then we will have more time for questions. 
Thank you and please proceed.

 STATEMENT OF HON. JOHN FLEMING, M.D., ASSISTANT SECRETARY OF 
 COMMERCE FOR ECONOMIC DEVELOPMENT, U.S. DEPARTMENT OF COMMERCE

    Dr. Fleming. Chairman Barrasso, Ranking Member Carper, and 
members of the committee, it is a pleasure and a privilege to 
appear before you today to testify on behalf of the Economic 
Development Administration and the Department of Commerce.
    EDA welcomes this hearing as an opportunity to discuss the 
role that the Department of Commerce plays in supporting 
economic development in economically distressed areas of the 
Country. My focus as Assistant Secretary for Economic 
Development has been on helping foster economic growth. We do 
this by leveraging private capital investments in economically 
distressed areas, including in opportunity zones, harnessing 
innovation, assisting communities recover from natural 
disasters, assisting communities severely impacted by the 
declining use of coal, and supporting community-driven work 
force development strategies.
    One of the Administration's key areas of focus and one that 
EDA is leading to support are opportunity zones, which were 
created as a part of the Tax Cuts and Jobs Act of 2017. As the 
agency whose principal role is to make investments in 
economically distressed communities to generate jobs, foster 
resiliency, and accelerate long-term growth, the Opportunity 
Zones Initiative fits hand in glove with the EDA's mission.
    Since Fiscal Year 2018, EDA has invested nearly $352 
million in 262 projects in or near opportunity zones across the 
U.S., including in many of your States. The Regional Innovation 
Strategies Program, RIS, is another distinct program in EDA's 
portfolio, and one we continue to strengthen to harness and 
enhance technological innovation across the Country.
    Since the RIS Program's inception, RIS grantees have 
supported over 8,200 full-time jobs and have helped raise over 
$1 billion in investment capital. At EDA, we are also working 
to support the development of skills training facilities that 
address the hiring needs of the local and regional business 
communities, particularly in the manufacturing sector.
    Since 2017, EDA has invested more than $118 million in 
Public Works and Economic Adjustment Assistance grant funding 
in 80 projects to help communities and regions build the 
capacity for economic development through work force 
development strategies. These investments directly support the 
goals of the National Council for the American Worker, 
established by Presidential executive order to create our 
first-ever National Workforce Strategy, which is co-chaired by 
Secretary Ross and Presidential Advisor Ivanka Trump.
    As you know, in Fiscal Year 2018 and Fiscal Year 2019, our 
appropriators provided EDA with $1.2 billion in disaster 
supplemental funding. To date, EDA has awarded over 178 grants, 
totaling nearly $472 million to communities across the Country 
that have been impacted by federally declared natural 
disasters. EDA will continue to use the additional funding 
authorized by Congress for our Economic Adjustment Assistance 
Program to assist in economic development and diversification 
efforts in coal communities through the Assistance of Coal 
Communities competition.
    Since Fiscal Year 2017, EDA has invested more than $96 
million in 99 projects to assist such communities and regions 
across the U.S. I would also like to mention before I conclude 
that EDA is working to launch newly funded initiatives in our 
Fiscal Year 2020 appropriations. This includes the new STEM 
Apprenticeship Program, which will enable EDA to continue to 
support more innovation-focused economic development by helping 
communities more directly develop talent to meet the needs of 
industries of the future.
    EDA will also deploy the $15 million in appropriations we 
received to support communities impacted by nuclear plant 
closures.
    Chairman Barrasso, Ranking Member Carper, and members of 
the committee, thank you for the opportunity to address some of 
EDA's efforts to enhance the global competitiveness of 
America's regions through economic development. I look forward 
to answering any questions you may have.
    [The prepared statement of Dr. Fleming follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thanks so very much for your 
testimony and for your very diligent work on this important 
project and program.
    I have a couple of questions. I know my colleagues do, as 
well. As I mentioned in my opening statement, your agency 
issued a $1.4 million grant to Campbell County and Gillette, 
Wyoming through the Economic Development Corporation, so I am 
pleased to see you are supporting the projects, because coal-
to-products technology is an emerging industry, and it could be 
many new markets for coal.
    Last month, Senator Capito and I, along with Senators 
Manchin and Enzi introduced legislation, S. 3047, the Creating 
Opportunities and Leveraging Technologies for Coal Carbon Act 
of 2019. The bill supports dedicated Federal research and 
development of coal-to-products technology.
    How does your agency collaborate with other agencies and 
experts in identifying promising new technologies like coal-to-
products, but other technologies as well?
    Dr. Fleming. Well, I think I can best answer that, Senator, 
by giving you an example. We are currently concluding an MOU 
with the Department of Energy that they are going to provide $2 
million to our RIS program that we will invest in innovative 
ways of dealing with blue energy, so-called blue water energy, 
using wave motion and things of that sort.
    We are working collaboratively with our sister departments 
and agencies. Many have focused particularly on our RIS program 
because it is innovation-based, and it is a very competitive 
program looking for the best possible ideas and new 
technologies that we can work on cooperatively and 
collaboratively to achieve those goals.
    Senator Barrasso. And then in terms of building work force, 
certainly at home in Wyoming, the University of Wyoming, our 
community college system, they are key partners in building our 
work force. I was going to ask if you could explain how the 
Economic Development Administration works with university 
centers and with community colleges to address some of the 
challenges that we have in work force development.
    Dr. Fleming. Right. Well, thank you for that, Senator.
    That is a very exciting area, one, along with our RIS 
program, we have the most interest in. Community colleges are 
really engaging in the trade skills, whether it is advanced 
welding instrumentation, bricklaying, you name it, anything 
that requires skills.
    The reason is because these jobs go untaken, and they are 
good-paying jobs. These young adults in many cases don't have 
the opportunity to get those skills anyplace else. So we have 
been providing grants, both technical assistance grants and 
direct grants, such as in the panhandle of Florida where we had 
a million-plus dollar grant for advanced welding.
    That is going to help them because their building schedules 
are getting way behind. Why? Because they get hit by disaster 
after disaster. There just aren't enough skilled folks in the 
region to do this. So that is a very much growing area, and we 
highly support that, Senator.
    Senator Barrasso. I was thinking back to your hearing for 
your confirmation. You, being a fiscal conservative, were 
questioned in here, with a group of fiscal conservatives here, 
about making sure the government is a careful steward of 
taxpayer funds. That was your history in the House of 
Representatives. How does your agency evaluate projects to 
determine if they are really a productive use of our taxpayer's 
money?
    Dr. Fleming. Well, great question. First of all, as an 
agency, we fight way above our weight class when it comes to 
how we deploy funds. What I mean by that is we also have a 
section of our agency that actually measures, particularly at 
three, six, and 9 years, and mainly our construction projects, 
on how we are doing.
    It has to be proven to us that there are jobs waiting to be 
had, that there is capital ready to be deployed. As a result of 
that, over the measurement of many years, we have seen for 
every single Federal taxpayer dollar, $15 of private capital 
investment. That is in addition to the local community match, 
which is usually one to one.
    So as you can see, we catalyze, we leverage the private 
sector capital investment, and we have the stats in order to 
prove that.
    Senator Barrasso. My final question, since I am here with 
my colleague, Senator Capito from West Virginia, we are both 
from coal States. Coal communities throughout Wyoming certainly 
were devastated as they were in West Virginia under the Obama 
administration. I applaud your current efforts to focus on 
opportunities in coal communities.
    Can I ask, do you intend to continue to prioritize coal 
country projects?
    Dr. Fleming. Absolutely, Senator, and as Senator Capito is 
likely to comment here in a moment, I visited West Virginia. We 
had a great time.
    We actually presented eight different grants, totaling $7 
million, that are going to help the good people of West 
Virginia recover from a lot of these problems and difficulties. 
We strongly support that. The appropriators are generously 
providing $30 million a year for us to employ in that space, so 
we are always standing ready to help in that.
    Senator Barrasso. Thank you, Dr. Fleming. Senator Carper.
    Senator Carper. As Senator Capito know, I am a native West 
Virginian, and from Beckley, Raleigh County. One of my great-
great-great-great grandfathers was one of 15 co-founders of 
Raleigh County. So I hope one of those seven or eight grants 
makes its way to Raleigh County.
    In fact, when I was a little kid, a lot of our neighbors 
were coal miners. My grandparents, even going back to see them 
later in our lives, their next-door neighbor, Mr. Metters, was 
a coal miner. I have a great deal of feeling and empathy toward 
the plight that they have gone and faced. I am happy to hear 
that you are able to provide some real help for them.
    I know Senator Capito has been all over this, along with 
Senator Manchin, as well. Thank you.
    When I think about economic development, I love economic 
development. I used to work as a naval flight officer in the 
Vietnam War and came back to the U.S. and moved from California 
to Delaware and got an MBA and met a guy running for Congress. 
I ended being his treasurer and fundraiser while I was an MBA 
student.
    The next year, I got to run for State treasurer because 
nobody wanted to run. We had the worst credit rating in the 
Country. I got to run because nobody wanted to run. The rest 
is, as they say, history. I worked for about less than a year 
before I ran for treasurer in the Delaware Economic Development 
Office.
    To this day, when people ask me what I do if I am traveling 
around the Country, like if I am on an airplane, they say, 
well, what do you do? So I end up spending the next 2 hours 
talking about impeachment or the Affordable Care Act.
    Senator Barrasso. You know, they have these headphones that 
you wear, so you don't have to answer all these questions.
    [Laughter.]
    Senator Carper. In any event, I tell people I am a retired 
Navy captain, and I work for the Head of Economic Development 
for the State of Delaware. I just love doing that. I think 
there are a lot of ways you can help people, and one of the 
best ways you can help people is to make sure they have a job. 
There are many elements to that.
    As I said earlier, we don't create jobs, but we are all 
involved in helping to create the environment that sustains the 
job creation, including the work force training that we are 
doing in Sussex County, Delaware that we are doing with people 
who will help keep our new generation of automobiles and trucks 
up and operating. Transportation systems and surface 
transportation, which we work on here a lot, water, access to 
capital, access to decisionmakers, common sense regulation, a 
tax burden that is bearable and actually fosters economic 
growth, and the list goes on and on and on.
    I want to talk a little bit about the future. When you were 
a nominee before us, and you reflected back on your time in the 
House of Representatives, how many years did you serve?
    Dr. Fleming. Eight years.
    Senator Carper. Eight years. One of the things we talked 
about was your choice not to support EDA as a Congressman, but 
as a nominee. We all learn as we go along in life. God knows I 
hope I am smarter than I used to be.
    Just talk to us about now that you have been at the helm 
for about a year, just think back on your views then and what 
you have seen and what you would like to share to folks who 
aren't really convinced that we do need an EDA, we need a 
robustly funded EDA. The Administration has given us three 
budgets in a row where they zero out EDA. My hope is that when 
you provide your input, you are trying to convince the 
President to do something else, but just talk about that 
please.
    Dr. Fleming. Sure. Well, I thank you for the opportunity 
for that, Senator Carper. I can tell you that in preparing for 
the nomination, I learned a lot more about EDA than I ever 
knew.
    What really excites me as a fiscal conservative, as the 
Chairman says, is the fact that from my former life, I was 
involved in entrepreneurship, I was a developer.
    Senator Carper. Is there something you haven't done? It is 
pretty impressive.
    [Laughter.]
    Dr. Fleming. Well, you need to talk to my wife, Senator. 
She could probably tell you.
    As developers or entrepreneurs, we are always interested in 
OPM, right? Other people's money. From a fiscal standpoint, 
from a conservative fiscal standpoint, to me, it makes a lot of 
sense for us, for the government to leverage the private sector 
to do what it does so well, and that is invest private capital 
with a great return, not only a financial return, but a social 
impact return on that investment.
    As I learned more about EDA and the good work that it has 
done, and really the excitement from both sides of the aisle 
about the work EDA has done, I really fell in love with EDA and 
the work that it does.
    Senator Carper. Let me just interrupt. The President is 
going to submit his budget in a couple of weeks. Do you have 
any idea if the President will again propose to eliminate EDA?
    Dr. Fleming. My expectation and that of my staff and 
colleagues is that that will also be in his budget, the fourth-
year budget, that elimination of EDA will likely be----
    Senator Carper. Is that demoralizing for the folks that 
work for you, with you? Is that demoralizing?
    Dr. Fleming. I really have not detected anything like that. 
To be honest with you, if you look at our scores, the FEV 
scores that we have, that we have actually seen that lift, and 
they were already pretty good anyway. Longevity with people 
that have been there 30, 40 years.
    I really have not detected that problem. We just keep our 
heads down and our nose to the grindstone. We just do our work 
every day. And so far, Congress has been very generous to us, 
in fact, increasing our funding this year. That really gets us 
up every morning and doing the good work that we do, catalyzing 
private investment.
    Senator Carper. My colleagues and I in the Senate, have 
been focused a lot in the recent days, actually recent hours, 
on checks and balances, and really, the key to our success as a 
Nation for all these years, underlying our success, the 
durability of our democracy is that system of checks and 
balances. A good demonstration of that is support for EDA and 
the work that you and the folks you lead work.
    You mentioned leverage. It is incredibly important that we 
use this limited Federal resource to leverage a whole lot more 
private sectors in State and local. We try to do that in 
Delaware; I am sure my colleagues try to do that in their 
States. Thanks so much.
    Senator Barrasso. Thank you, Senator Carper. Senator 
Capito.
    Senator Capito. Thank you, Mr. Chairman. It is great to see 
you again, Dr. Fleming, and to see Angela. I appreciate your 
visit to West Virginia on Veteran's Day, you being a veteran 
yourself.
    We had a great day with some great announcements, as you 
mentioned, $7 million. The one that we cut the ribbon on where 
we were actually in Putnam County was an infrastructure 
project, which really can leverage a lot of private investment, 
but also help those local water entities and the economic 
development and county authorities really get the job done in 
an area where they can't grow unless they can get this 
infrastructure. So I am really pleased about the emphasis that 
EDA has placed on infrastructure.
    I am also pleased that under your leadership, and really 
under the leadership of President Trump, that the 
prioritization that EDA has reprioritized to where it needs to 
be. These are the unserved and underserved areas, where your 
options are nonexistent or are very, very low. I think we see 
that, certainly in my State.
    Obviously, the assistance to coal communities has been an 
enormous help to us, because as the Chairman said, Wyoming, and 
as Senator Carper knows, as a native-born West Virginian, some 
of those areas were really decimated and have a really long 
time to be able to recover.
    Let's talk a little bit if we could about infrastructure. 
Where are you seeing, when you set priorities, where are you 
seeing the priorities in terms of, I mean, you could go 
anywhere. You could go infrastructure, you could go in coal 
communities, tech development, work force development. How do 
you set the priorities, or is it project to project?
    Dr. Fleming. Senator, do you mean specific to coal, or all?
    Senator Capito. No, just in general.
    Dr. Fleming. Over our history, the vast majority of our 
investments have been in infrastructure. Typically, a water 
system, sanitation systems, 60 percent of our dollars go to 
rural areas. Obviously, broadband is another type of 
infrastructure that we invest in.
    In our regular or routine appropriations, our focus is 
again on removing obstacles to private investment. One quick 
example I will give you is in Hattiesburg, Mississippi. 
Regent's Bank has a call center there, and they want to do 
expand it, hire more people, invest tens of millions of 
dollars, but for a road there that had been so affected by 
weather. They didn't want to make that investment or take that 
risk unless the road was fixed. So the community matched our 
investment of over a million dollars. Now, they are growing and 
blowing and hiring people, and these are good-paying jobs.
    Senator Capito. Thanks. Well, we know diversification is 
the key to success. Our States being very heavy energy jobs, 
there is still a lot of job growth and job development that 
occurs in the energy field. EDA was, in your November visit, we 
announced a half-million-dollar project for the city of 
Philippi to be able to extend sewer infrastructure to a coal 
mine, which is 150 jobs, 450 existing jobs.
    I appreciate the fact that while aid to coal communities is 
to those that are no longer able to sustain that employment 
base, you still have your eye on the diversification of the 
economy and retaining the jobs that we have.
    The energy industry, you come from an energy State 
yourself. How do you see that in terms of job development? 
Because obviously we are much more energy independent in this 
Country than we were even five to 10 years ago.
    Dr. Fleming. Yes. Well, Senator, I think you have already 
said it, diversification. When I came to Congress in 2009, we 
were not exporting natural gas. Today, Louisiana is one of the 
largest natural gas exporters in the world. It is a cleaner 
form of energy than what we had prior to that time.
    As the marketplace moves and as we find newer forms of 
energy or newer uses of existing energy form, we are always 
happy to evolve with that from a technological standpoint. Also 
remember that in the coal communities as well as the upcoming 
nuclear closures, we offer technical assistance. We actually 
pay for consultants to come in and look at what is going on in 
your section of the Country, what is happening with the 
economies in your locale, and how can we diversify that and get 
into whether it is other forms of energy, the same form, or 
something else altogether different.
    Also remember that in the coal section, we are also working 
the supply chain, too, which extends up into other States, such 
as Massachusetts.
    Senator Capito. Right. Last, in a hat tip to Senator 
Carper, the last EDA assistance to coal communities that West 
Virginia received was $700,000 in Beckley, which is his 
birthplace, and it is for the Regional Development Authority to 
do entrepreneurship, to try to get creative minds to create 
their own small businesses.
    You are also working with WVU Beckley there, but also the 
ARC, which is the Appalachian Regional Commission, which has 
dollars to go along with the private dollar investment. It is 
also located in a designated opportunity zone. I am proud to 
say that is legislation that I was on the forefront of, and I 
think has great potential for EDA to match investments in 
opportunity zones to help, again, going back to those 
communities, that really, their options are so limited, that 
without that kick from EDA and the opportunity in an 
opportunity zone, couldn't further develop.
    Sorry I went so far over, but thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Before turning to Senator Whitehouse, I ask unanimous 
consent to enter into the record four letters in support of the 
EDA's ongoing work in Wyoming. Without objection, they are 
admitted.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Chairman, before you recognize Sheldon, 
can I just say a followup to Senator Capito? My wife and I went 
on a roots tour last August, back through West Virginia, 
Kentucky, North Carolina, South Carolina. It was just great 
fun. We got to see all of our cousins.
    Senator Capito. Well, we are all related.
    [Laughter.]
    Senator Carper. We really are.
    In Beckley we had, 1 day I got up really early on a 
Saturday morning, and I went for a run. I went downtown and ran 
by the old First Baptist Church where the Pattons all used to 
go to church. I used to go there with them. It was 7, 7:30 in 
the morning. I ran by First Baptist Church, and a guy pulls up 
in his car and he stops, and he gets out and apparently, he is 
a deacon or something.
    He was just going in to work on a project in the church, as 
he said, you are a United States Senator, aren't you? I went, 
wow, I have my gym clothes on.
    [Laughter.]
    And he said, Senator Manchin, we are very proud of you, and 
I said, I am not Senator Manchin, and he said, well, which one 
are you? I said, I am Shelley Capito.
    [Laughter.]
    Senator Capito. Well, I hope you got him straightened out.
    [Laughter.]
    Senator Carper. I straightened it out for the record before 
I left.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Welcome, Director Fleming. As you know, 
I voted for your confirmation and supported you. On occasion, I 
have had some regret about people who I have voted for, but in 
your case, I came to say thank you and to express my 
appreciation for the work you are doing.
    I want you to know that in Rhode Island, we very often get 
things done by working together. Public-private partnerships, 
partnerships across municipal, State, Federal, all sorts of 
different parties coming together. As you also know, when that 
is your process, things can sometimes take some time.
    I think we have been particularly well-served by Linda 
Cruz-Carnall, who is your Regional Director in our area, and by 
the terrific Marguerite McGinley, who is the Area Director. We 
have a port in Galilee that has had very considerable rebuild, 
thanks to EDA support, and that has made it an attraction for 
other fishing boats that had not come there before to now come 
there because the facilities are top-quality.
    That has been very helpful for our fishing community. As 
you know, in a farming community or a fishing community, when 
you get below a certain point, and you can't support the net--
makers, the motor repair people, the boat painters, and all the 
others, then it begins to completely fall apart. So having that 
extra business has been essential to that industrial fishing 
ecosystem at Galilee, and that has been very helpful.
    It has meant a lot to us to have EDA there when Sandy came 
through and so much damage was done, and there had to be some 
flex about unpredicted harms that resulted from Sandy, 
unpredicted damage. EDA was there and very patient with working 
through with us to make sure that things got done and got done 
right.
    My particular favorite, however, was the story of an 
incubator, a business incubator, an innovation hub on Aquidneck 
Island in Rhode Island, an area which often feels a little bit 
overlooked by Providence and upState and everybody else. 
Because there were so many parties involved in it, the project 
ran into some difficulties. There was a moment when EDA had the 
choice to bail on the project, or to hang in there.
    My office gave EDA a very strong assurance that this 
project would work, that they should hang in there, that it was 
going to be worth it at the end of the day. EDA made the choice 
to hang in there, and sure enough, since then, all the pieces 
have come together. The innovation center is up and running. 
What used to be an abandoned, moldy schoolhouse on an 
attractive, relatively main street of Aquidneck Island, one of 
the main thoroughfares of Aquidneck Island, is now buzzing with 
activity and filled with business interests and folks who are 
trying to lead the innovation agenda in that area.
    You didn't have to hang in there with us. You trusted us 
that we could get this done. We did, in fact. It has turned 
into, I think, a real victory for EDA and for the local 
community. So I am just here to express my appreciation for a 
number of very good stories and for the patience and 
determination and the toleration of your Regional Director and 
you Area Director with us through all of this. It is been a 
terrific, terrific partnership, and I appreciate it.
    Dr. Fleming. Sure. Thank you. If I could respond to that.
    Senator Whitehouse. Please do. I will have to run though, 
because I am due at the leader's office.
    Dr. Fleming. That is OK. I just want to thank you for your 
words of support, and that is one of the things I really like 
about EDA, is its ability to be flexible with these situations 
that arise. Thank you.
    Senator Barrasso. Senator Carper.
    Senator Carper. Dr. Fleming, I have a series of questions 
to ask. They are not yes or no questions, but you can give 
fairly short answers if you want. The first one, on disaster 
funding, which you talked about already a little bit. Congress 
authorized I think about $1.25 billion dollars in disaster 
supplemental funding to EDA, I think to spend on major 
disasters in 2018 and in 2019. I think that was roughly what we 
did.
    The question was, any idea if these funds are being spent 
to build and rebuild infrastructure that has more recently been 
able to withstand the effects of the climate crisis?
    Dr. Fleming. Senator, yes. We are well into that $1.2 
billion dollars. It was for fiscal years 2018 and 2019 for 
disasters 2017 through 2019, and we are $471 million into the 
first traunch, which is about 80 percent. We are, again, 
investing in new structures or to rebuild structures and to, 
because of our mandate, to add resiliency to this so that with 
the next hurricane, or the next earthquake, or the next forest 
fire that may----
    Senator Carper. Or the next 1,000-year flood which occurs 
next year, someplace.
    Dr. Fleming. Flooding, of course, yes. Absolutely. So we 
want to make sure we don't have to go back and rebuild, or if 
it is down, it is down for a very short period of time and can 
be brought back up very rapidly.
    Senator Carper. It is my understanding that EDA has 
suffered from some staffing shortfalls in recent years. Is that 
still the case today, and would you please share with us what 
the current staffing levels are, roughly, and how they compare 
to staffing levels at the end of, we will say, the last 
Administration.
    Dr. Fleming. Right. Thank you for that question. You know, 
EDA has not had supplemental disaster funding for a number of 
years until again, Fiscal Year 2018. We had a sudden traunch of 
$587 million for deployment, and we had to gear up, which meant 
hiring term employees, engineers, and so forth.
    We had several challenges there. No. 1, the economy is 
roaring, so we have to compete with the private sector. No. 2, 
we have all the steps that you have to go through with Federal 
hiring, and we don't have the sort of emergency hiring 
authority that for instance, FEMA has. But we have managed to 
get the job done. Certainly, we would be interested in further 
discussions on emergency hiring authority going forward.
    Senator Carper. I talked with my staff a few minutes ago 
about reauthorization of EDA. The next time we do 
reauthorization, is that something that we should take into 
consideration?
    Dr. Fleming. Absolutely, Senator. We could really gear up a 
lot faster, spin up our staff. Remember also, these are term 
employees, which means that it is not a permanent job, and that 
is another challenge. Some people won't work that way.
    But now that we have closed the gaps, we really are up and 
going now. We have these term employees available for the next 
Fiscal Year traunch, which we have already begun to obligate. 
It is going, but the ramp-up period could be faster if we had 
that special authority.
    Senator Carper. OK. Good, thanks.
    A little bit on opportunity zones, as have been mentioned 
here by several of us. I understand that EDA is giving 
preference to grant applications from applicants in opportunity 
zones, pursuant to the President's 2018 executive order. EDA 
has also made opportunity zones eligible for EDA funding, even 
if the area fails to meet EDA's economic disaster distress 
criteria.
    Opportunity zones, if I am not mistaken, already have a leg 
up with private investors, due to their generous tax 
preference, as you know. So in some cases, impoverished areas 
that weren't designated as opportunity zones are losing out, I 
am told, because potential investors would rather invest in 
opportunity zones instead.
    I am a little concerned about this practice. You might be 
too, that they could inadvertently further disadvantage 
distressed communities where EDA grants are most needed.
    Here is my question. Could you just take a minute and 
explain to us how the EDA is ensuring that the preference given 
to opportunity zones, including zones that don't meet EDA's 
economic distress criteria, does not put distressed communities 
at a greater disadvantage compared to those communities that 
already enjoy a powerful incentive for attracting private 
investment?
    Dr. Fleming. Senator, first of all, let me just say that 
you heard me earlier talk about the 15 to 1 ratio of private 
investment. To every dollar of taxpayer Federal dollar that we 
invest, we fill that with opportunity zones, that could 
dramatically increase, 30 to 1, 50 to 1, 100 to 1, who knows.
    So the force multiplier effect of leveraging and catalyzing 
the private sector investment, we think, coming alongside 
opportunity zone tax preferences could really empower the work 
that we do and the work of entrepreneurs as well as 
philanthropists and others. We see that as very important.
    As far as the criteria, it is correct that we accept all 
applications, but not necessarily grant them if they are 
opportunity zone applications. It is one of our five special 
criteria, or priorities, if you will, for investment.
    However, we have been investing, as you heard me say in my 
opening remarks, since 2018, almost $400 million in or around 
opportunity zones. Just based on the fact that they were areas 
of distress, not because they were opportunity zones, because 
most of them had not been declared yet.
    I will say there are special criteria, of course, that were 
set forth in statute, such as there has to be at least 20 
percent poverty rate, and other things. Then from that, the 
Governors themselves selected the census tracks. We try to be 
mindful of any potential for investment in areas that really 
don't need our help. Remember, it is still a competitive 
process, and we are going to go where the need is the greatest.
    Senator Carper. Thank you so much.
    Senator Gillibrand, you are right on time.
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member. Mr. Secretary, thank you for your testimony today.
    I want to take the time to discuss the Economic Development 
Administration's role in disaster recovery. We continue to see 
devastating extreme weather events across the Country, whether 
it is fires raging in California, hurricanes and earthquakes 
ravaging the island of Puerto Rico, or flooding in my home 
State of New York, climate change is truly wreaking havoc in 
communities across the Country.
    In the EDA's commitment to building more resilient regional 
economies in the wake of natural disasters, does the EDA see 
the unrelenting effects of climate change as a hurdle to, as 
you said, ``help communities recover stronger?''
    Dr. Fleming. Thank you, Senator. Certainly, EDA's focus is 
on resiliency since 2015, that if we have to rebuild something, 
or diversify, or whatever we need to do, that it can withstand 
the next natural occurrence, next event that may come that way. 
I am not a climatologist, we don't have any climatologists on 
our staff, so I don't claim any expertise in that area, but 
certainly we stand ready to deal with any sort of weather event 
or other natural disaster that may come our way.
    Senator Gillibrand. Through the Supplemental Appropriations 
for Disaster Relief Act of 2019, the EDA received $600 million 
in additional funds. The EDA disburses both pre-disaster 
resiliency grants as well as post-disaster recovery grants. 
With climate change contributing to an uptick in extreme 
weather events, how does the EDA prioritize pre-disaster 
resiliency grants versus post-disaster recovery grants?
    Dr. Fleming. Senator, I will need to take that question for 
the record. I am not in a position to really make that 
distinction for you today, but would love to research and 
analyze it and get back to you.
    Senator Gillibrand. We would be grateful for a letter to 
the committee.
    Dr. Fleming. OK, sure.
    Senator Gillibrand. As you detailed in your remarks, the 
role of the EDA in disaster recovery is to help facilitate the 
timely and effective delivery of Federal economic development 
assistance to support long-term community economic recovery 
planning and project implementation and resiliency.
    In 2017, after being hit by an economic disaster, our 
fellow citizens in Puerto Rico were devastated by Hurricane 
Maria. EDA's first disbursement of disaster aid to Puerto Rico 
came in October 2018, a little over a year from when Hurricane 
Maria hit. At the end of 2019, the island was once again struck 
by disaster, this time in the form of multiple earthquakes.
    How will the EDA prioritize funding to ensure that the 
island and our fellow citizens receive relief, as well as 
resiliency resources so they can rebuild effectively and 
quickly?
    Dr. Fleming. I am glad you asked that question, Senator, 
because a lot of times, there can be a little bit of confusion 
about where we fit into the whole disaster recovery scheme. We 
are not first responders, although we do set up a joint office 
with FEMA and our other partners early on, but we were not 
appropriated funds for the 2017 disasters until well into 2018. 
Then we began to obligate them as we received applications.
    So we are about 80 percent through that, at this point. So 
far, we have obligated over $56 million to Puerto Rico for the 
2018 traunch of appropriations for disaster funding.
    Senator Gillibrand. When do we think that money will be 
actually spent?
    Dr. Fleming. Well, it is obligated. It is really up to the 
people on the ground there in Puerto Rico, for them to bring 
that project to fruition and to be mature enough to spend it. 
We set it aside; we make it available to them.
    But remember that while we have an economic development 
representative there, in fact, he is Puerto Rican, he lives in 
Puerto Rico, he is a native Puerto Rican, and he is very close 
to everything, we rely on our partners there, such as the 
economic development directors, the local business community, 
and so forth, to actually let us know what they are going to 
do, what their plans are so we can then fund them.
    Senator Gillibrand. Have you identified any impediments to 
having that money be spent? Is there, for example, a matching 
requirement, or is there any other structural impediment that 
has resulted in that money not being spent?
    Dr. Fleming. In the case of Puerto Rico, we find the 
biggest challenge is the fact that the level of expertise, the 
level of capability is less than what we see in other areas.
    Senator Gillibrand. I would imagine, particularly since the 
islands have been hit so hard, and they have had such a loss of 
population as a result, people are just going where they can 
have a home and a school, and running water and electricity. So 
they really have been leaving the islands.
    Dr. Fleming. Right. You are quite correct on that, Senator. 
I will add that part of what we do is provide grants for 
technical assistance, so we are always willing to pay to have 
experts and consultants to come in and come on the ground and 
to give their guidance.
    Senator Gillibrand. Last, is there a deadline for that 
money, if it is not spent, when it would be clawed back?
    Dr. Fleming. There is not an absolute deadline. We try to 
be very flexible with that. The only time that we may recapture 
it in some other way is when it appears that project is just 
never going to come about.
    Senator Gillibrand. Well, I would be grateful if you would 
work with my office specifically on trying to remove 
impediments for that money to be spent, and if it is needing 
assistance to write applications for technical assistance, our 
office is happy to support that. But I would love to work with 
you to make sure that we really start investing in Puerto 
Rico's recovery as well as resiliency building.
    Dr. Fleming. Absolutely, Senator, we would be happy to work 
with you and your staff,
    Senator Gillibrand. Thank you very much. Thank you, Mr. 
Chairman, and Mr. Ranking Member.
    Senator Barrasso. Thank you, Senator Gillibrand.
    Thank you so much, Dr. Fleming.
    The record is going to remain open for 2 weeks, so you may 
get some questions, and if you do, please respond in writing, I 
want to thank you for your time and your testimony and for the 
wonderful job you are doing. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]
  

                                  [all]
</pre></body></html>
